                            Office of the Inspector General
                   Corporation for National and Community Service




                           Pre-Audit Survey Report of the
                            North Carolina Commission
                      on Volunteerism and Community Service


                          OIG Audit Report Number 00-08
                                 October 8,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # J-9-G-8-0024
                                    Task Order B9G9X102



This report was issued to Corporation management on May 30,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
November 27,2000, and complete its corrective actions by May 30,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                             CORPORATION
                       Corporation for National and Community Service                    FOR NATIONAL

                               Pre-Audit Survey of the
           North Carolina Commission on Volunteerism and Community Service
                            OIG Audit Report Number 00-08



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin PC to perform the pre-audit survey of the North Carolina
Commission on Volunteerism and Community Service. UKW's report, which follows, concludes
that the Commission appears to have an open and competitive process to select national service
subgrantees, but noted areasfor improvement. The report concludes that the Commission does not
have an adequate process in place for thefiscal administration ofgrants, nor does it have adequate



                                                                                     Inspector General
                                                                                     1201 New York Avenue, NW
                                                                                     Washington, DC 20.525
 controls to evaluate and monitor subgrantees. The report notes that the Commission does appear
 to have adequate controls in place for the use of training and technical assistancefunds. The report
 includes recommendationsfor improvements by the Commission and oversight by the Corporation
for National Service, including a recommendation that the Corporation revise its guidance to state
 commissions on subgrantee monitoring to speczfi minimum procedures to be performed and
 minimum documentation requirements. Finally, the report recommends afull-scopefinancial audit
 of the Commissionfor 1995 through the current program year.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. A response to the report by the North Carolina
Commission is included as Appendix C. In its response, the Commission disagreed with the
majority of the report's findings and recommendations, including the recommendation that the OIG
perform a full-scope financial audit of funds awarded to the Commission for 1995 through the
current program year. The Corporation did not respond in writing to the report within the 30 day
comment period.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                          Pre-Audit Survey Report of the
                                          North Carolina Commission on
                                       Volunteerism and Community Service



                                                        Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................    1

  Background .................................................................................................................................   2

  Overview of the North Carolina Commission ........................................................................... 3

  Objectives, Scope and Methodology ......................................................................................... 3

  Findings and Recommendations ................................................................................................                  4


Appendices

  Appendix A - North Carolina Commission Funding - 1995 through 1999 ............................ 11

  Appendix B - Detailed Engagement Objectives and Methodology ........................................ 16

  Appendix C - North Carolina Commission Response ............................................................. 19

  Appendix D - Corporation Response .......................................................................................                      25
Inspector General
Corporation for National and Community Service

At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the North Carolina
Commission on Volunteerism and Community Service. The primary purpose of this survey was
to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring North Carolina State subgrantees, including ArneriCorps
       Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the North Carolina Commission.

RESULTS IN BRIEF

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering grants received
from the Corporation.

   The Commission appears to have an open and competitive process to select national service
   subgrantees, and the related systems and controls appear to be functioning as designed.
   However, we noted areas for improvement related to the process of selecting Learn and Serve
   subgrantees.

   The Commission does not have an adequate process in place for the fiscal administration of
   grants.

   The Commission does not have adequate controls in place to evaluate and monitor
   subgrantees.

   The Commission appears to have adequate controls in place to provide reasonable assurance
   that training and technical assistance are made available and provided to subgrantees.
Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the funds awarded to the North Carolina Commission for 1995 through the
current program year. Procedures should also include verification of reported Member service
hours and matching amounts by subgrantees. In addition, we recommend that the Corporation
follow up with the Commission to determine that appropriate corrective actions are put into place
to address the conditions reported herein, and that the Corporation consider these conditions in
its oversight and monitoring of the North Carolina Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities, and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post-service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include between 15 and 25
voting members. Each Commission has a responsibility to develop and communicate a vision
and ethic of service throughout the State.

The State Commissions provide ArneriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees' compliance
with grant requirements. The State Commissions are also responsible for providing training and
technical assistance to AmeriCorps State and National Direct programs and to the broader
network of service programs throughout the state. The Commissions are prohibited from directly
operating national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, as well as effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
OVER VIEW OF THE NORTH CAROLINA COMMISSION

The North Carolina Commission on Volunteerism and Community Service is headquartered in
Raleigh, North Carolina. The Commission has been providing national and community service
programs in its current form since 1995. The Commission reported that it received funding from
the Corporation totaling $2,938,709 in 1995; $3,166,401 in 1996; $3,046,5 10 in 1997;
$2,843,002 in 1998, and $2,940,005 in 1999. Additional information on the Commission's
funding is presented in Appendix A.

The Commission currently has seven full-time staff consisting of an Executive Director, four
Program Officers, and two support personnel. The ArneriCorps and Learn and Serve Program
Officers provide full-time fiscal and program monitoring of these programs.

As part of the State of North Carolina, the Commission is included in the state's annual OMB
Circular A-133 audit. There have been no questioned costs or findings identified at the
Commission to date. However, it was not considered or tested as a major program.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering grants and for monitoring the fiscal activity of subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of North Carolina State subgrantees, including
       AmeriCorps Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the North Carolina Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;
       reviewing OMB Circular A- 133 audit reports and current program year grant agreements
       for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995 through
       1999; and

       performing the procedures detailed in Appendix B, in connection with the Commission's
       internal controls, selection of subgrantees, administration of grant finds, evaluation and
       monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in place
at the Commission using inquiry, observation, and examination of a sample of source documents.
Finally, we summarized our observations and developed the findings and recommendations
presented in this report. We discussed all findings with Commission management during an exit
conference on October 8, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission or its compliance with applicable laws,
regulations, contracts, and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls and compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the North Carolina Commission and the Corporation for
National and Community Service. The Commission's response to our findings and
recommendations is included as Appendix C. In order to address certain of the concerns
expressed in the Commission's response, we have clarified the wording of the respective
Findings and Recommendations. The Corporation did not respond in writing to our findings and
recommendations within the thirty-day comment period.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, Section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The North Carolina Commission has developed
various procedures to comply with this requirement. The Commission advertises the availability
of funds through many resources, such as, posting notices in local libraries, direct mailings, and
submissions of press releases to the local media by the Governor's Office. A peer review panel
of volunteers reviews grant applications with the aid of grant reviewer forms and provides
feedback to Commission Board Members as to which subgrantees they feel are the best
applicants. The Board Members review the applications, as well as reviewer and ranking forms,
and determine who will be presented to the Corporation for funding.

While we believe the documentation maintained by the Commission to support the AmeriCorps
selection process is adequate, we believe the documentation maintained to support the Learn and
Serve selection process should be enhanced. We have identified the following areas for
improvement.

     The Commission did not maintain documentation to support the advertisement of the
                     availability of funds for Learn and Serve grants.

A Reference Manual for Commission Executive Directors and Members, page 3-9, states "Just as
the process for developing the Unified State Plan must be open and accessible to all interested
parties, so too must the process by which the Commission solicits funding applications. The
Commission is expected to widely publicize the availability of funds, distribute a clear and easily
understood application packet, and offer technical assistance to potential applicants. The
application instructions should reflect the themes and priorities of the state and those established
by the Corporation."

Commission procedures indicate that Learn and Serve funds are awarded through an open and
competitive process. However, no evidence exists to document that this process was performed
during 1996. The Commission could not provide an explanation for this lack of documentation
and also did not document their reasons for failing to announce the availability of funds during
the selection process.

We recommend that the Commission revise procedures to maintain documentation to support the
advertisement of the availability of funds.

           Some documentation was unavailable to support grant-making decisions.

The Commission provided us with the majority of the requested documentation to support the
application award, renewal, and rejection process. However, out of six applicants selected for
testing, the Commission was unable to provide us with all requested documentation related to the
renewal of a Learn and Serve subgrantee. The renewal file for 1996 did not contain site visits or
progress reports to support the renewal of the program. Therefore we were unable to determine
whether the Commission followed Corporation guidelines regarding the renewal of this specific
subgrantee.

We recommend that the Commission enforce current policies and procedures requiring the
retention of documentation supporting the renewal of subgrantees.
               Lack of assessment of subgrantee applicants' Financial Systems
                                during the selection process

According to A Reference Manual for Commission Executive Directors and Members, Section
4.2, Commissions are responsible for maintaining "appropriate financial management systems to
disburse funds and track Commission and program expenditures according to legal and grant
requirements." In order to comply with this requirement, the Commission must be able to ensure
that subgrantees have systems in place to accurately track expenditures, as this information forms
the basis of a majority of the Commission's expenditure reporting.

During our testing, we determined that selection officials do not consider the adequacy of the
applicants' financial systems during the Commission's subgrantee selection process. The grant
application form provided by the Corporation does not specifically address the applicant's
financial systems. In addition, Commission selection procedures do not require Commission
personnel to request information from the applicants related to their financial systems. As a
result, grant funds may be provided to an organization that does not have financial systems in
place to properly account for the Corporation funds received or to ensure compliance with related
requirements.

We recommend the Commission evaluate and document the adequacy of the applicants' financial
systems during the selection process to ensure that applicants have systems in place to properly
account for grant funds and comply with related grant requirements.

Administration of Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" (A Reference Manual for Commission Executive Directors
and Members, Section 4.3). Based on the results of our testing, we identified the following areas
for improvement related to the evaluation of subgrantee compliance with reporting and grant
requirements.

    Lack of evidence of Financial Status Report review, including matching recalculation

Commission procedures indicate that subgrantee Financial Status Reports are to be reviewed, and
matching requirements, recalculated. However, no documentation exists supporting that this
review was performed. In addition, Commission personnel do not compare the FSRs to the
subgrantees' accounting systems or other supporting documentation during site visits. Our
testing also identified one AmeriCorps FSR that was not properly carried forward from the prior
FSR submitted to the Corporation.

Because of these conditions, errors on the FSRs may exist and remain undetected. Although all
subgrantees are on a reimbursement only basis, if subgrantee FSRs are not agreed to the
subgrantees' accounting system, there is an increased risk that subgrantees are incorrectly
reporting amounts on their FSRs and the Commission lacks reasonable assurance that
subgrantees are correctly reporting amounts on their FSR.

We recommend the Commission develop standard procedures to review subgrantee FSRs,
recalculate matching requirements and formally document the results of this review. In addition,
the Commission should implement site visit monitoring procedures that require the reconciliation
of the subgrantees' FSRs to the subgrantees' accounting systems along with other supporting
documentation (e.g. invoices).

                      Inability to determine timeliness of receipt of FSRs

The Commission does not routinely date-stamp FSR reports from subgrantees as they are
received. Thus, the Commission can not routinely verify whether these documents are submitted
timely in compliance with the grant agreement. As a result, subgrantee FSRs may not be
submitted on a timely basis and the Commission has no basis to verify the FSRs' receipt date.

During October 1999, the Commission began using the Web Based Reporting System which
electronically records the date subgrantees submit their FSRs to the Commission. As a result, no
recommendation is required at this time related to recording the date of the receipt of FSRs.

                     The Commission did not maintain all required FSRs.

Learn and Serve provisions, issued during 1995, require grantees submit timely Financial Status
Reports in accordance with Corporation guidelines four times a year. During 1998, Learn and
Serve provisions were revised that require grantees submit Financial Status Reports two times
instead of four times a year.

The Commission was unable to provide us with FSRs for the 1995 through 1998 program years
for seven of the eight Learn & Serve subgrantees tested.

This lack of documentation precluded us from determining whether the North Carolina
Commission submitted required FSRs for Learn and Serve grants to the Corporation in a timely
manner. In addition, we were also unable to determine the accuracy of FSRs submitted to the
North Carolina Commission by subgrantees, as well as the accuracy of FSRs submitted by the
Commission to the Corporation, due to various missing quarterly FSRs.

We recommend that the Commission maintain copies of, and support for, all FSRs it submits to
the Corporation, as well as appropriate copies of subgrantee FSRs and supporting
documentation.
Evaluation and Monitoring of Subgrantees

As discussed above, the Commission is responsible for evaluating whether subgrantees comply
with legal, reporting, financial management and grant requirements and ensuring corrective
action when noncompliance is found.

We identified the following areas for improvement related to the evahation and monitoring of
subgrantees.

      The evaluating and monitoring system for subgrantees needs to be improved at the
                                       Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D § 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used for
authorized purposes in compliance with laws, regulations, and the provisions of contracts or
grant agreements and that performance goals are achieved." In addition, 9 400 (d)(4) requires that
pass through entities "ensure that subrecipients expending $300,000 or more in Federal awards
during the subrecipient's fiscal year have met the audit requirements of this part for that fiscal
year."

The monitoring tool, currently in place at the North Carolina Commission was created under
guidelines and recommendations received from a CNS contractor. During our review of
monitoring folders for subgrantees, we determined that certain information was not included.
Specifically, the names of the Member files reviewed, identification of Member files where
exceptions were noted and procedures followed to select Member files reviewed were not
included. In addition, comments included on the checklists were general in nature and prevented
others or us from re-performing procedures completed by North Carolina Commission personnel.
The lack of specific documentation prevents us from determining the adequacy of the monitoring
procedures performed by North Carolina Commission personnel.

We recommend that the Commission revise written policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample sizes,
exceptions, recommendations, and follow up). This will allow the Corporation to assess the
Commission's oversight of subgrantees when it performs its planned Commission administrative
reviews.

In addition, we recommend that the Corporation for National and Community Service revise its
guidance on subgrantee monitoring to specify minimum procedures to be performed, as well as
minimum documentation requirements.
       Lack of documentation of review of OMB Circular A-133 reports or other audit
                                 reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 5 400 (d)(3) requires that
pass through entities " Monitor the activities of subrecipients as necessary to ensure that Federal
awards are used for authorized purposes in compliance with laws, regulations, and the provisions
of contracts or grant agreements and that performance goals are achieved." In addition, $400
(d)(4) requires that pass through entities "ensure that subrecipients expending $300,000 or more
in Federal awards during the subrecipients' fiscal year have met the audit requirements of this
part for that fiscal year."

However, the Commission does not document the review of subgrantee OMB Circular A-133
audits or other audit reports as part of the monitoring process. Therefore, we were not able to
determine if the Commission routinely reviews these reports to determine if auditors have
identified control weaknesses or instances of non-compliance related to the AmeriCorps
programs.

In its failure to review and consider audit results, the Commission ignores information helpful in
carrying out its oversight and monitoring responsibilities. Therefore, we recommend the
Commission maintain a schedule of subgrantees subject to OMB A-133 audit requirements and
ensure that the audits are performed. We also recommend the Commission establish policies and
procedures requiring the review of A-133 audit reports and that such results are documented.

                          Schedule ofplanned and actual site visit dates

While the Commission maintains a schedule of planned dates for site visits to be performed
during each program year, the Commission does not document actual dates site visits were
performed. Without documentation of dates site visits were performed, the Commission could
overlook a particular site visit or not perform the site visits timely. In addition, during our review
of subgrantee monitoring files, we were unable to find documentation for several site visits.

We recommend that the Commission revise its current schedule of site visits to include dates site
visits is actually performed. A Commission staff member, different fiom those who perform site
visits, should periodically review this schedule to ensure the site visits are completed timely and
documented in the file.
Providing Technical Assistance

Annually, the Commission receives grant fimds to provide technical assistance to its subgrantees.
Procedures are in place at the Commission to (1) identify training needs of subgrantees through
periodic staff meetings with the program directors and a needs assessment survey; (2) notify
subgrantees of training programs; and (3) provide needed training to subgrantees. We identified
no significant areas for improvement within this process.




This report is intended solely for information and use of the Office of the Inspector General,
management of the Corporation for National and Community Service, the North Carolina
Commission on Volunteerism and Community Service, and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.




Washington, DC
October 8, 1999
APPENDIX A - NORTH CAROLINA COMMISSION FUNDING




                                                                                                    .
                                                  CORPORATION FOR NATIONAL SERVICE
                                            FUNDING TO THE NORTH CAROLINA STATE COMMISSION
                                                                  1995

                                                 I                   I
                                                                                                    ADMINISTRATION
                                           COMPETITIVE             FUNDS               FUNDS           FUNDS "
              FUNDS                           FUNDS.              $200,000             $90,000         $453,935
             $1,359,222                      $835,552



       I                      I
               MATCH.                         MATCH-              MATCH.            MATCH              MATCH.
              $843,807                       $607,786             $284,942         REQUIRED            $89,686




                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $2,938,709




                                                        FUNDS AWARDED TO SUBGRANTEES
                                                                  $2,380,349




                                       + A!-.-
                                            AMERICORPS
                                             FORMULA:
                                             $1,359,222
                                                                  AMERICORPS

                                                                  COMPETITIVE
                                                                    $835,552

                                               MATCH.                MATCH.              MATCH:
                                              $843,807              $607,786            $284,942


                                       I    TOTAL # OF
                                              SUBS.
                                                                   TOTAL # OF
                                                                     SUBS:
                                                                       2+
                                                                                       TOTAL # OF
                                                                                         SUBS.
                                                                                           9



                                       1     TOTAL # OF
                                               SITES
                                                17+
                                                                   TOTAL # OF
                                                                     SITES'
                                                                       13
                                                                                       TOTAL # OF
                                                                                         SITES.
                                                                                            9




   There were no carryovers for 1995

   " D~sab~llty
             funds ~ncludedIn grant award
APPENDIX A - NORTH CAROLINA COMMISSION FUNDING




                                                       CORPORATION FOR NATIONAL SERVICE
                                                 FUNDING TO THE NORTH CAROLINA STATE COMMISSION




                                   ' AMERICORPS
                                       COMPETITIVE                    FUNDS'                  FUNDS             FUNDS:"
                                         FUNDS                        $138,000               $120,000           $325,755
                                         $839,476

                                         MATCH                         MATCH                  MATCH             MATCH.
                                         $497,906                      $74,500               REQUIRED           $58,454




                                                                          f
                                                     TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION




                                         .
                                                                      $3,166,401                            I




                                                           FUNDS AWARDED TO SUBGRANTEES
                                                                                         -


                                           AMERICORPS
                                                                      -A-AMERICORPS

                                            FORMULA                      COMPETITIVE
                                            $1,743,170                     $839,476

                                              MATCH                           MATCH              MATCH
                                             $1,155,075                       $497,906           $65.048

                                            TOTAL # OF                    TOTAL # OF           TOTAL # OF
                                              SUBS                          SUBS                 SUBS.
                                                8                             2

                                            TOTAL # OF                    TOTAL # OF           TOTAL # OF
                                                 SITES.                        SITES               SITES.
                                                   23                            9




  Total Carryovers for 1996 (Not Included in the current year fundlng amounts above).

  Admlnlstratlon     $       40.401
  PDAT                        20,000

  "   Disablllty funds Included In grant award
APPENDIX A - NORTH CAROLINA COMMISSION FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                             FUNDING TO THE NORTH CAROLINA STATE COMMISSION
                                                                   1997



                                                   1
                                          AMERICORPS
                                                                -       1
                                                                      L&S
                                                                                            1
                                                                                           PDAT
                                                                                                             1
                                                                                                      ADMINISTRATION
               FORMULA                    COMPETITIVE                FUNDS                FUNDS.         FUNDS."
                 FUNDS                       FUNDS                  $161,800             $144,000        $273,481
               $1,728,137                   $739,092
                                                                                           NO
                MATCH                         MATCH                  MATCH.              MATCH            MATCH
               $1,031,255                    $504,658                $98,858            REQUIRED         $1 18,935
         I




                                                    v                   'I                  v
                                                  TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                   $3,046,510



                                                                        1
                                                          FUNDS AWARDED TO SUBGRANTEES
                                                                    $2,584,339




                                          AMERICORPS
                                                                 L
                                                                 AMERICORPS
                                           FORMULA                COMPETITIVE
                                           $1,728,137               $739.092

                                             MATCH.                  MATCH                MATCH.
                                            $ 1,031,255             $505.658              $64,248

                                           TOTAL # OF              TOTAL # OF            TOTAL # OF
                                                                     SUBS                  SUBS.
                                                                       2                     6

                                           TOTAL # OF              TOTAL # OF            TOTAL # OF
                                             SITES                   SITES                 SITES.
                                                                       12                     6




  Total Carryovers for 1997 (Not lncluded in the current year funding amounts above):

   Administration       16    78,000
   PDAT                       34,000
   AmeriCorps                136,442


   "   Dlsablllty funds included In grant award
APPENDIX A - NORTH CAROLINA COMMlSS/ON FUND/NG




                                                  CORPORATION FOR NATIONAL SERVlCE
                                            FUNDING TO THE NORTH CAROLINA STATE COMMISSION
                                                                  1998

              I                       I                     I                                           I                       I
                      -               4
                              AMERICORPS
        FORMULA               COMPETITIVE                 FUNDS-                  FUNDS              FUNDS **                FUNDS
         FUNDS                  FUNDS'                   $155,000                 $47,906            $348,874                $26,000
        $2,011,922              $253,300
                                                                          I                                           II   GOVERNOR'S

         MATCH                   MATCH.                  MATCH.
         $939,035                $135,433




                                                 TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                  $2,843,002




                                                       FUNDS AWARDED TO SUBGRANTEES
                                                                 $2,417,661




                                                                                                       EDUCATION
                              FORMULA                  COMPETITIVE.
                                                         $253,300                                           $26,000

                                MATCH
                               $939,035
                                                          MATCH,
                                                         $135,433             1     MATCH-
                                                                                   5129185   I   (          MATCH.
                                                                                                              $0

                             TOTAL # OF                 TOTAL # OF
                                                          SUBS,
                                                            1

                             TOTAL # OF                 TOTAL # OF
                               SITES                      SITES.
                                                             4




   Total Carryovers for 1998 (Not included in the current year funding amounts above)

   Adrninlstratm       $     41,600
   PDAT:                    152,094
   ArneriCorps:             116,642
   Disabrlrty.               54.398

   "   Disability funds ~ncludedin grant award
APPENDIX A - NORTH CAROLINA COMMISSION FUNDING




                                                       CORPORAllON FOR NATIONAL SERVICE
                                                 FUNDING TO THE NORTH CAROLINA STATE COMMISSION
                                                                      1999




       T                          T                          V                         f                        T                7
    AMERICORPS               AMERICORPS                      LaS                        PDAT                 ADMINISTRATION     PROMISE
     FORMULA                 COMPETITIVE                   FUNDS                       FUNDS                    FUNDS."       FELLOWSHIP
      FUNDS                    FUNDS'                      $172,500                    $95,915                   $52,197         FUNDS
     $2,454,393                  $0                                                                                             $165,000
                                                                                      NO
       MATCH                     MATCH                     MATCH '                  MATCH                       MATCH           MATCH
      $1,560,770                   $0                      $174,903                REQUIRED                     $339,411          $0




                                                                T                       w
                                                   TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                    $2,940,005




                                                                               1
                                                           FUNDS AWARDED TO SUBGRANTEES
                                                                     $2,585,642




                                                AMERICORPS
                                                 FORMULA
                                                 $2,454,393

                                                    MATCH.                                        MATCH:
                                                   $1,560.770                                     $100,703

                                                 TOTAL # OF                                      TOTAL # OF
                                                                                                   SUBS




                                                                                            I
                                                 TOTAL # OF                                      TOTAL # OF
                                                   SITES                                           SITES:

                                                                                                     l4




  Total Carryovers for 1999 (Not included in the current year funding amounts above)

  Administration      $        247,837
  AmerCorps                     176.211
  PDAT                           50 085

        Amount in excess of required match - LBS         $119.911
  "     Disability funds included in grant award
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following to ensure compliance with Part
6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations: overall control environment;
activities allowed or unallowed and allowable costs; cash management; eligibility; equipment
and real property management; matching; period of availability of Corporation funds;
procurement and suspension, debarment; program income; and reporting by the Commission
to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
      APPENDM B      - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY
      --




      Administering the Grant Funds

      Our objectives were to:

             conduct a preliminary survey of the systems and controls utilized by the Commission
             to oversee and monitor the performance and progress of funded subgrantees;

             make a preliminary assessment as to whether the Commission's organizational
             structure and staffing level and skill mix is conducive to effective grant
             administration and whether the commission has a properly constituted membership;

             make a preliminary assessment as to whether the Commission provided adequate
             guidance to subgrantees related to maintenance of financial systems, records,
             supporting documentation, and reporting of subgrantee activity;

             conduct a preliminary survey of financial systems and documentation maintained by
             the Commission to support oversight of subgrantees and required reporting to the
             Corporation (including Financial Status reports, enrollment and exit forms); and

             make a preliminary assessment as to what procedures the Commission has in place to
             verify the accuracy and timeliness of reports submitted by the subgrantees.

      In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
      subgrantees, as well as Financial Status Reports submitted by the Commission to the
      Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
      also determined whether the Commission has implemented the Web Based Reporting
      System.

      Evaluating and Monitoring Grants

      Our objectives were to:

             conduct a preliminary survey of the systems and controls utilized by the Commission,
             in conjunction with the Corporation, to implement a comprehensive, non-duplicative
             evaluation and monitoring process for their subgrantees;

             make a preliminary assessment as to whether the Commission has a subgrantee site
             visit program in place and assess the effectiveness of its design in achieving
             monitoring objectives;

             conduct a preliminary survey of the Commission's procedures used to assess
             subgrantee compliance with Corporation regulations (e.g., those governing eligibility
             of Members, service hour reporting, prohibited activities, payment of living
             allowances to Members and allowability of costs incurred and claimed under the
1JK                                              - 17 -
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPEND/X C - NORTH CAROL/NA COMM/SS/ON RESPONSE




      NC COMMISSION ON VOLUNTEERISM AND COMMUNITY SERVICE
                                   Governor's Office of Citizen and Community Services
                                              20312 Mail Service Center
                                               Raleigh, NC 27699-0312

                                                    April 14,2000


    Ms. Luise S. Jordan, Inspector General
    Office of the Inspector General
    1201 New York Avenue, NW
    Washington DC 20525

    Dear Inspector General Jordan:

    We have received the draft report on the pre-audit survey of the North Carolina State Commission on
    Volunteerism and Community Service. We are grateful that your procedures provide an opportunity for
    review with consideration for revisions as well as the inclusion of our comments in the report. The
    Commission wishes to submit the attached comments and proposed revisions for your review.

    I must say that I am gravely concerned with the disparity between the findings shared with the staff and me
    during the pre-audit exit interview and the findings reflected in the report. Additional findings included in
    the report are both alarming and disturbing.

    We hold in high esteem the work of your Office and the critical role you play in monitoring the expenditures
    and accountability of federal funds. In that same spirit, the North Carolina Commission takes very seriously
    its responsibility for the good stewardship of funds and resources granted to the State of North Carolina.
    Our Commissioners are dedicated and committed to the mission of the AmeriCorps and Learn and Serve
    Programs, and work closely with the staff on the entire grant process, including site visits and monitoring. 1
    think this diligence in monitoring and evaluation is reflected in the steps we have taken to terminate
    programs that were found to be out of compliance.

    These comments are given in an effort to share our true concerns for the findings in this report. Our
    Commission staff has worked diligently in preparing sound factual responses to our concerns. However, it
    is sometimes difficult to express all facets of procedures and circumstances, and sincere commitment t o
    excellence in words. Therefore, the Executive Director and I would be happy to come to Washington to
    meet with you and your staff regarding our report. Again, we thank you for all of the work you do on behalf
    of the citizens in the United States. We look forward to hearing from you in the near future.

                                             Sincerely,



                                             Alice Keene, Chair
                                             North Carolina Commission on Volunteerism
                                             and Community Service


    Cc:     William Lindsay, Executive Director
            Linda Povlich, Deputy Chief of Staff, Office of the Governor


                                          (919) 715-3470, or I- 800-820-GIVE
                                                  (919) 715-8677fax
APPENDIX C          - NORTH CAROLINA COMMISSION RESPONSE



                                               UKW RESULTS IN BRIEF

   Page 1
        "The Commission appears to have an open and competitive process to select notional service subgrantees, and the related
       systems and controls appear to be functioning as desrgned However, we noted areasfor improvement relafed to the
       process of selecting Learn and Serve subgmntees "

   COMMISSION COMMENT:
   An "open" selection process as described in the Commission's Policies and Procedures Manual, Learn and
   Serve Section, Subsection IV ("Grant Process"), Part A ("Grant Selection Processn) was put into place in
   1997 for Learn and Serve subgrantees.

   .   "The Commission does not hove an adequate process in place for thefiscal administration ofgrants.   "




   COMMISSION REVISION (CLARIFICATION):
   The Commission appears to have policies in place for adequate fiscal administration of grants as described
   in their Policies and Procedures Manual, ArneriCorps Section, Subsection V ("Financial Information"); and
   Learn and Serve Section, Subsection 111 ("Financial Information"). The fiscal administration of all federal
   funds awarded to any state agency is administered in accordance with the North Carolina Accounting
   System (NCAS). North Carolina General Statute 143-16.1, titled "Federal Funds under the Executive
   Budget Act" states, "All federal funds shall be expended and reported in accordance with provisions of the
   Executive Budget Act except as otherwise provided by law."

       "The Commission does not have adequate controls in place to evaluate and monitor subgrantees.   "




   COMMISSION REVISION (CLARIFICATION):
   A monitoring tool provided by a Corporation contractor and utilized by the Commission is described in the
   Commission's Policies and Procedures Manual, ArneriCorps Section, Subsection U ("Required
   Documentationn), Part C ("Policy Guidance for Site Visits"). The Commission appears to have a need to
   enhance its documentation of monitoring procedures over the internal controls of subgrantees to ensure
   transactions are properly recorded. The Commission proposes to collaborate with management consultants
   with the North Carolina O a c e of Budget and Management to identify components of the current monitoring
   tool in need of strengthening and develop strategies to address these areas. Furthermore, we recommend the
   Corporation revise its guidance on subgrantee monitoring to specify minimum procedures to be performed,
   as well as minimum documentation requirements.

   Page 2
   uKW ~ecommendation:
    "Based on our preliminary assessments, we recommend that the OlGperform afull-scope financial a d i t of thefunds warded
   to the North Carolina Commissionfor 1995 through the current program year. Procedures should also include a verification
   of reportedhiember service hours nnd molching &ounts by subgn&te& In oddtian, we recommend thof the ~ o r ~ & t i o n
  follow up m'th the Commission to determine thot appropriate corrective octions are put into place to address the conditions
   reported herein, and thot the Corporation consider these conditions in its oversight and monitoring of the North Carolina
   Commission. "

   COMMISSION REVISION (CORRECTIONb
   As required by state law, the North Carolina State Auditor's Office has recently concluded a full-scope fiscal
   audit of the Office of the Governor, which houses the Commission. The State Auditor's report identified no
   findings related to the Commission or its subgrantees. A full-scope audit by the OIG would appear to be a
   duplication of effort. Based on the UKW exit conference (see Attachment #I) and the four UKW Pre-Audit
   Survey Findings and Recommendations (seeAttachment #2), no evidence was identified to warrant a full-
   scope audit of Corporation funds received by the Commission. UKW acknowledged the Commission's
   current policies and procedures concerning monitoring of subgrantees (see Attachment #3) and focused its
   recommendations on "enhancing" or "strengthening" these policies and procedures.
APPENDIX C           - NORTH CAROLINA COMMISSION RESPONSE




                                         FINDINGS AND RECOMMENDATIONS


                               -
   Paee 5 - Selection of Suberantees
    UK~WFindinz:
    "The Commission did not maintain documentation to supporl the advertisement ofthe availability offundsfor Learn and Serve
  grants ...Commissionprocedures indicate that Learn and Servejirnds are awarded through an open and compehtive process.
   However, no evtdence ensts to document that this process was performed. The Commission could not provide an explanation
  for thrs lack of documentation and also did not document heir reasonsfor fn~lingto announce the availability offunds during
   the selection process. "
   UKW Recommendntion:
    "We recommend that the Commissionrevise procedures to document the reasoningfor not announcing the availab~lityoj
  firndr, during the selection of subgrantees. "

    COMMISSION REVISION (CORRECTION):
    The Commission strongly disagrees with the UKW recommendation. The Commission previously
    recognized the need to enhance the process for announcing availability of Learn and Serve funds and
    providing appropriate supporting documentation. In fiscal year 1999-2000, the application process for new
    and continuing programs was implemented. The Commission ensured that the application and review
    processes were as consistent and inclusive as possible. Over 1000 RFPs (see Attachment #) were sent out to
    various community-based organizations. Notification of funds availability was published in various
    statewide newsletters (Center for Non-Profits, NC Association of Volunteer Administrators). A statewide
    press release (see Attachment # 5 ) was issued from the Governor's Press Office. The announcement was
    publicized on the Commission and Governor's Office websites. As a result of the Commission's effort to
    strengthen the advertising of fund availability, there was an 84% increase in the number of applications
    submitted. The Commission advertised and conducted three regional training and technical assistance
    workshops across the state. Sessions were open to the general public and centered on writing quality
    applications to be submitted to the Commission for funding consideration. In 1998, a Request for Proposal
    (see Attachment #6) was mailed to more than 300 community-based organizations listed in the Commission's
    database. The RFP was also made available to other interested parties by publicizing it on the Commission's
    website. The Program Officer conducted three statewide grantwriting training sessions to support
    submission of quality applications. The Commission 'received 23 applications. In 1997, the Learn and Serve
    RFP (see Attachment # 7 ) process included mailing press releases and applications to more than 300 non-
    profit agencies, churches, and other community-based organizations that were included in the Commission's
    database. The notice of funding availability was also published in The Philanthropy Journal (see
    Attachment #8), and advertised on the Commission's website.

    I n the process of relocating the Commission office in 1997, several boxes of program files were apparently
    lost. The Commission has conducted an in-depth search in the old office location, the new office location,
    and the office of State Archives; however the pre-FY 9 5 9 6 files stored in the boxes have not been located.
    (see Attachment #9)

    Page 5
    k w ~lndin~:
     "Some documentolion was unmoiloble to support grunt-mola'ng decisions...However, out of sir opplicants selectedfor testing,
    the Commission was unable to provide us m'th all requested documentation related to the renew01 of a Learn and Serve
    America subgruntee. The renewolfile for 1996 did not contain site visits or progress reports to support the renewal of the
    prom.       "


   K
   W
   /IiR
      e
      co
       mme
         n
         d~ecommendation:
          a
          no
           n
           ~
           r
           ~~




     "We recommend that the Commissionenforce current polides andprocedures requiring the retention of documentation
    support the renewal of subgrantees. "
APPENDIX C          - NORTH CAROLINA COMMlSS/ON RESPONSE



   COMMISSION REVISION (CLARIFICATION:
   The Commission can clearly show that all grant-making decisions have been open after Program Year 1996-
   97. In the process of relocating the Commission office in 1997, several boxes of program fiies were
   apparently lost. The Commission has conducted an in-deptb search in the old office location, the new oflice
   location, and the office of State Archives; however the p r e - N 95-96 files stored in the boxes have not been
   located. (see Attachment #9)

   Page 6
   U K finding:
          ~
    "Lack o/asressment of subgrantee applicants' Financial Systems during the selection process ..selection o@cials do not
   consider the adequacy ofthe applicants 'financial Jrstems during the Commission 'ssubgrmtee selection process ... In oddtion,
   Commisnon selection procedures do not require Commissionpersonnel to requesl in/or?nntionfiom the applicants relded to
   theirfinancial systems."


   UKW Recommendation:
    "We recommend the Commission waluale and document the adequacy of the applicants 'financial systems during the selection
   process to ensure that applicants have systems in place to properly accountfor grant finds and comply with related grant
   requirements. "

   COMMISSION COMMENT:
   The AmeriCorps grant guidelines and application requires applicants to describe the legal applicant's ability
   to manage federal funding, as well as a description of the fmancial management systems. For FY 99-00,
   Commission staff visited potential new applicants (applicants identified from the peer review process) to
   review financial systems, received and reviewed a copy of the most recent audit, and met with the financial
   oflicer. The Commission sees this as a requirement for all new applicants and will make an amendment to
   the AmeriCorps procedures manual to include fiscal assessments before grants are awarded to new
   programs. Commission staff also visits at least twice a year with current or renewal applicants to assess and
   document their financial management systems.

   Page 6 - Administering- Grant Funds
   UK-w Finding:
    "Lack of evidence offinancial Status Report review, including matching recalculation. Commissionprocedures indicate that
   subgrantee Financial Status Reporls are reviewed, and that matching requirements are recalculated. However, no
   documentotion ens& supporting that this rm'ew was performed In oddtion. Commissionpersonnel do not compare the FXRS
   to the subgrantees' accounting systems or other supporting documentation during site visits. Also, we identified one
   AmeriCorps FSR that was not properly cam'ed fonvard from h e prior reported FSR submitted to the Corporation.     "

   UKW Recommendaffon:
    "We recommend the Commission develop standardprocedures to review subgrantee FSRs, recalculate matching requirements
   and/onnally document the results o/this review In addition, the Commission should implement site visit monitoring
   procedures that require the reconciliation of the subgrantees' FSRF to Ihe subgrantees ' accounting systems along with other
   support~ngdocumentation(e.g. invoices). "

   COMhllSSlON REVISION (CORRECTION):
   In compliance with Commission guidelines, described in their Policies and Procedures Manual, AmeriCorps
   section, Subsection V (~'Financiilnfomation"),Part B ("FSR Analysis"), an Excel program (see
   Attachment #lo) developed by our former CNS grants officer i s used to calculate programs' match level. On
   a quarterly basis the AmeriCorps Program Officer sends written correspondence to fiscal agents of legal
   applicants an update as to whether programs are on target or behind in meeting the required match.
   Programs that are not on target with meeting the match are required to submit a plan within 30 days as to
   how the match will be in compliance. The FSR referenced in the report was a filing error. The program had
   submitted a revised, corrected FSR but it was filed in the program file rather than the fiscal file.

   Page 7
   UKW Finrl'np:
    'Ynability to determine timeliness o.f receipt
                                                . ofFSRs
                                                   -    ... The Commission does nor routinely date-stamp FSR reportsfrom
   subgrantees as they are received. Thus, the Commissionm o t routinely verib whether these documents &submitted timely
   in compliance with the grant agreement. "
APPENDIX C          - NORTH CAROLINA COMMISSION RESPONSE


   UKW Recommendation:
   None noted

   COMMlSSlON COMMENT:
   This year the Commission requires programs to submit FSRs through WBRS at least one week before it's
   due to the Corporation for National Service to allow for review by the AmeriCorps Program Officer and
   State Budget Officer. Prior to FY 99-00, the majority of programs faxed their FSR to the ofice and a date
   of transmittal is at the top of each. In the event that paper FSRs are accepted again, the Commission will
   affir a date stamp.


   U K " Findmg:
          ~
   "The Commission did not maintain all required FSRs ... The Commission was unable to provide us with FSRs for the 1995
   through 1998program yearsfor seven of the eight Learn and Serve subgrantees tested. This lack of documentationprecluded
   usfrom determining whether the North Carolina Commission submittedFSRs for Learn and Serve grants to the Corporation in
   a timely manner In oddition, we were also unable to determine the accuracy of FSRs submitted to the North Carolina
   Commission by mbgrantees, as well as the accuracy o m s submitted by the Commission to the Corporation, due to various
   missinn auarterlv FSRs "

   UKW k e ~ o m m e & i o n :
   " .. we recommend that the Commission reemphasize the requirement that all FSRs submitted by subgrantees, as well as FSRF
   submitted by the Commission to the Cornoration, be maintained and be available for review. In addition, the Commission
   should ensure that data collection is accurate and timely "

   COMMISSION COMMENT:
   The Commission, in compliance with their Policies and Procedures Manual, Learn and Serve Section,
   Subsection 111 (L'FinancialInformationw),Part B ("FSR Reports"), will re-emphasize and mandate that all
   FSRs submitted by subgrantees, as well as FSRs submitted by the Commission to the Corporation, be
   maintained and available for review. The Commission will ensure that data collection is accurate and
   timely. The North Carolina Office of State Budget and Management has submitted all required Learn and
   Serve FSRs to the Corporation in a timely manner and has hard copies on file in their office.

   COMMISSION REVISION (CORRECTION1
   UKW correlates the Learn and Serve Program with AmeriCorps Provision #17; however this Provision does
   not govern Learn and Serve. We are in agreement that Learn and Serve needs to enhance their method of
   documenting the performance of the FSR review. Effective immediately, Program Officers, while on site
   visits, will place added emphasis on the local program documentation for match. In our effort to be good
   stewards of grant money, the Commission wants to take this issue to the Monitoring and Evaluation
   Committee for further discussion and suggestions for implementing additional measures.

                                         -
   Pace 8 - Evaluation and Monitoring Grants
   UK% Findina:
    " m e evaluating and monitoring systemfor subgrantees nee& to be improved at the Commission. During our review of
   monitoring foldersfor subgmntees, we determined that cerfain information was not included. Specifically, the names of the
   Memberfiles reviewed, identification ofMemberfiles where exceptions were noted andprocedures followed to select Member
   Jiles reviewed were not included. In addition, comments included on the checklists were general in nature andprevented
   others or usfrom re-performingprocedures completed by North Carolina Commissionpersonnel. The lock of specific
   documentarian prevents usfrom determining the adequacy of the monitoringproceduresperjbrmed by North Carolina
   Commissionpersonnel.   "


    UKWRec~mmendofion:
    "We recommend that the commisn'onrevise written policies andprocedures to require that specific information be included in
   the documentationfor site visits for example, sample sizes, exceptions, recommendations, andfollow up)... we recommend that
   the Corporationfor National and Communily Service revise itsguidance on subgrantee monitoring to specifi minimum
   procedures to be performed, as well as minimum documentation requirements."
APPENDIX C               - NORTH CAROLINA COMMISSION RESPONSE


   COMMISSION COMMENT:
   The Commission follows the Corporation's monitoring module. As stated previously, the Commission
   proposes to collaborate with management consultants with the North Carolina Office of Budget and
   Management to identify components of the current monitoring tool in need of strengthening and develop
   strategies to address these areas. To ensure that monitoring is consistent in Commissions nationwide, the
   North Carolina Commission strongly supports UKW's recommendation that the Corporation take the lead
   by providing approved guidelines.

   COMMISSION REVISION (CORRECTION):
   The monitoring tool currently being used by the AmeriCorps Program Offtcer in the North Carolina
   Commission was not the product of collaboration with Commissions in Delaware, California, New Jersey
   and Washington. It was provided to the North Carolina Commission by a Corporation contractor.

   Page 9
   UKW Findinn:
                                                                                       .             -
    "Lack o f documentation o f review o f OMB Circular A-133 Reuorls or other audit rewrls .fiom submantees... However, the
   Commission does not document the review of subgrantee OMB Circular A-133 audits or other audit reports aspart of the
   monitoring process. Therefore, we were not able to determine if the Commissionroutinely reviews these reports to determine
   if auditors hove identijed control weaknesses or Instances of non-compliance related to the AmeriCorps program. "
   UKW ~ecommendation:
    "In its failure to review and consider audit results, the Commissionignores information helpful in carrying out its oversight
   and monrtonng responsibilities. Therefore, we recommend the Commission establishpolicies andprocedures requiring the
   r m e w ofA-133 audit reports and that such reviews are documented."

   COMMISSION REVISION ICORRECTION):
   The Commission is in compliance with their Policies and Procedures Manual, AmeriCorps Section,
   Subsection V ("Financial Informationn), Part E ("Tracking Findings of Audit Reportsn). The policy will be
   amended to require Commission staff to attach a memo verifying review of subgrantee program audits prior
   to placement in the file. The Commission will also receive guidance and review from the Ofiice of State
   Budget. A letter will be sent to the legal applicants confirming receipt of the audit report. All subgrantee
   OMB Circular A-133 Audits are on file in the Commission office.

   Paee 9
   U ~ ~Wi n d i n n :
     "Schedule ofpIanned and actual site visit dates . The Commission does not mainfain a schedule ofplanned and ochral dates
    for site vrsifsfor each proflam year .. we were unable to find documentation for several site visits. "
   .UKW ~ecommendation:
     "We recommend that the commission maintain a clear and concise schedule of site visits to be performed and a record ofwhen
    site visits are performed. A Commission staffmember, differentfiom those who perform site visits, shouldreview this schedule
    to ensure the site vrsits are completed timely and documented in the file."

   COMMISSION REVISION KORRECTION):
   Commission s t a f f submits a list of scheduled site visits to the Executive Director and Commissioners. This is
   to encourage Commissioners to attend and participate in site visits. The Commission also has exercised its
   right to schedule visits with programs, provided reasonable time is allowed as required by the Commission's
   Policies and Procedures Manual, ArneriCorps Section, Subsection Il ("Required Documentation"), Part C
   ('Policy Guidance for Site Visits").
   A list of AmeriCorps and Learn and Serve subgrantee site visits is available at the Commission office.

   Many of our AmeriCorps programs have multi-site placements. Effective FY99-00,AmeriCorps
   subgrantees are required to send to the Commission, on a quarterly basis, documentation from program
   staff site visits.
APPENDIX D   - CORPORA TION RESPONSE


The Corporation did not respond in writing to our findings and recommendations
within the thirty-day comment period.
